No. 20-1324
IN THE
SUPREME COURT OF THE UNITED STATES
CHARLES MCMANEMY,

Petitioner,
vs.
BRUCE TIERNEY, ET AL.,

Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE EIGHTH CIRCUIT
PROOF OF SERVICE
I certify I am a member of the Bar of this Court and pursuant to the Supreme
Court Order of April 15, 2020, I have on this 10th day of June, 2021, caused copies of
the Brief in Opposition submitted on behalf of the parties identified below to be
transmitted via first class mail and electronic mail to:
ADAM C. WITOSKY
GRIBBLE BOLES STEWART & WITOSKY LAW
2015 Grand Avenue, Suite 200
Des Moines, IA 50312
awitosky@gbswlaw.com

DAVID E. SCHROCK
SMITH MILLS & SCHROCK LAW
P.O. Box 36
Cedar Rapids, IA 52406-0036
dschrock@smithmillslaw.com

MATTHEW J. HAINDFIELD
Counsel of Record
BRADSHAW, FOWLER, PROCTOR & FAIRGRAVE, P.C.
801 Grand Avenue, Suite 3700
Des Moines, IA 50309-8004
(515) 243-4191
haindfield.matthew@bradshawlaw.com

Counsel for Respondents
Bruce Tierney and Curt Lubben

